Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   Medicare Beneficiary Access
 to Skilled Nursing Facilities: 2000




                   JUNE GIBBS BROWN
                    Inspector General

                     SEPTEMBER 2000
                      OEI-02-00-00330
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's New York regional office prepared this report under the direction of John I. Molnar,
Regional Inspector General, and Renee C. Dunn, Deputy Regional Inspector General. Principal
OEI staff included:


REGION
                                      HEADQUARTERS

Ellen Vinkey, Project Leader
                Susan Burbach, Program Specialist

Danielle Fletcher
                           Brian Ritchie, Director, Technical Support Staff

Judy Lin
                                    Linda Moscoe, Technical Support

Jodi Nudelman
                               Scott Horning, Technical support

Betti Weimersheimer, intern
                 Barbara Tedesco, Mathematical Statistician





   To obtain copies of this report, please call the New York Regional Office at 212 264-2000.
         Reports are also available on the World Wide Web at our home page address:

                                   http://www.hhs.gov/oig/oei
                      EXECUTIVE SUMMARY
PURPOSE
      To assess the effects of the nursing home prospective payment system (PPS) on Medicare
      beneficiaries’ access to skilled nursing facilities.


BACKGROUND

      The Health Care Financing Administration (HCFA) asked the Office of Inspector General
      (OIG) to assess the effects of the new prospective payment system for skilled nursing
      facilities (SNFs) on access to care for Medicare beneficiaries. Concerns have been raised
      that the new payment system may change nursing facilities’ willingness and ability to serve
      Medicare beneficiaries and may adversely affect beneficiary access to SNFs. This
      inspection is part of an on-going look at access to skilled nursing facilities. Previous
      inspections entitled, Early Effects of the Prospective Payment System on Access to Skilled
      Nursing Facilities, OEI-02-99-00400, and Early Effects of the Prospective Payment
      System on Access to Skilled Nursing Facilities: Nursing Home Administrators’
      Perspective, OEI-02-99-00401 also examined the effects of PPS on quality of care.

      For this study, we interviewed a random sample of 202 hospital discharge planners, as
      well as analyzed HCFA data related to SNF discharges and hospital lengths of stay.


FINDINGS

Almost all Medicare beneficiaries can be placed in skilled nursing
facilities

      Almost all discharge planners report that they are able to place Medicare beneficiaries in
      skilled nursing facilities (SNFs). In fact, about 80 percent of discharge planners state that
      they could place all of the Medicare patients. Another 14 percent estimate that between 1
      and 5 percent of patients cannot be placed, while the remaining 5 percent of discharge
      planners put the estimate at over 5 percent. Most discharge planners indicate that there
      are enough beds available in their particular area, and HCFA data indicate an increasing
      bed supply.

      Discharge planners also indicate that patients whom they are unable to place remain in the
      hospital or eventually go home with or without home health care. Our analysis of HCFA
      data indicate that the medical profile of patients discharged to nursing homes remains

   Medicare Beneficiary Access to SNFs          i                                      OEI-02-00-00330
      largely unchanged after introduction of the new prospective payment system.

Some Medicare beneficiaries experience delays

      When specifically asked how often they experience delays in placing Medicare patients in
      SNFs, 43 percent rarely or never experience delays while 44 percent of discharge planners
      report that they sometimes experience delays. Twelve percent of discharge planners say
      they always or usually confront delays in placing patients.

      Despite concerns about delays, Medicare data from the first three months of 1996 through
      2000 show a decrease in the average length of hospital stays for Medicare patients prior to
      a SNF admission. These data suggest that Medicare patients do not have extended lengths
      of stay while waiting for a bed in a nursing home.

Multiple factors affect the placement process

      Medical Needs: Eighty percent of hospital discharge planners who report delays in
      placing Medicare patients in SNFs state that patients with particular medical conditions or
      service needs are more likely to experience delays before being placed in skilled nursing
      facilities. Discharge planners most often note that patients requiring intravenous or
      expensive drugs experience delays. They say that medically complex patients are also
      more likely to experience delays.

      Prospective Payment System: Sixty-nine percent of discharge planners who mention
      delays in placement for medical conditions or service needs attribute these delays to PPS
      while the remainder note that they experienced these delays prior to the implementation of
      PPS. About 54 percent of discharge planners volunteer that nursing homes have altered
      their admission practices for Medicare patients since the implementation of PPS. A few
      discharge planners add that nursing homes analyze the reimbursement rates of the
      individual patients before they accept patients and that the routine screening and admission
      process takes longer.

      Other Reasons: In addition to medical conditions and PPS, discharge planners most
      often mention the decision making process by patients and their family members as a
      source of delay. In addition, discharge planners also note that secondary payor issues
      cause delays. They point specifically to the Medicaid application process.

Access improves for dialysis patients

      In a September 1999 we found that discharge planners most often listed end stage renal
      disease (ESRD) as the clinical condition that had become the hardest to place since the
      implementation of PPS. The Balanced Budget Reform Act of 1999 extended pass-


   Medicare Beneficiary Access to SNFs         ii                                    OEI-02-00-00330
     through payments to ambulance services for renal dialysis so that nursing homes no longer
     have to absorb these costs. Although discharge planners continue to report delays for
     dialysis patients, dialysis patient delays dropped to the fifth most commonly cited delay.

CONCLUSION

     The findings in this follow-up study are consistent with those in the original “Early Effects
     of the Prospective Payment System on Access to Skilled Nursing Facilities, OEI-02-99-
     00400.” While it reveals some practice adjustments, there do not appear to be any major
     disruptions as a result of implementing the prospective payment system. To the extent
     that there are some disruptions, they appear to be localized.

Agency Comments
     The Health Care Financing Administration provided comments on the draft report. They
     concurred with our conclusion that there do not appear to be any major disruptions as a
     result of implementing PPS. Furthermore, HCFA notes that they will continue to
     aggressively monitor access to SNFs and the quality of SNF care. The OIG will also
     continue our work in this area, being sensitive to any localized access issues.




  Medicare Beneficiary Access to SNFs          iii                                   OEI-02-00-00330
                          TABLE                       OF             CONTENTS


                                                                                                                         PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS

      Almost All Medicare beneficiaries can be placed in SNFs . . . . . . . . . . . . . . . . . . . . . . . . 5


          Some beneficiaries experience delays in SNFs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          Multiple factors affect the placement process . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


          Access improves for dialysis patients . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9



APPENDICES
    A: Confidence intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


          B: Proportion of discharges to SNFs for top diagnoses . . . . . . . . . . . . . . . . . . . . . . . . . 13


          C: Average hospital length of stay for top diagnoses . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


          D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15





      Medicare Beneficiary Access to SNFs                       iv                                                 OEI-02-00-00330
                                  INTRODUCTION


PURPOSE

      To assess the effects of the nursing home prospective payment system (PPS) on Medicare
      beneficiaries’ access to skilled nursing facilities.


BACKGROUND

      The Health Care Financing Administration (HCFA) asked the Office of Inspector General
      (OIG) to assess the effects of the new prospective payment system for skilled nursing
      facilities (SNFs) on access to care for Medicare beneficiaries. Concerns have been raised
      that the new payment system may change nursing facilities’ willingness and ability to serve
      Medicare beneficiaries and may adversely affect beneficiary access to SNFs.

      This inspection is part of an on-going look at access to skilled nursing facilities. A
      previous study entitled, Early Effects of the Prospective Payment System on Access to
      Skilled Nursing Facilities, OEI-02-99-00400 was based on a survey of discharge planners
      and an analysis of Medicare data. We found that at the time there were no serious
      problems placing Medicare patients in nursing homes. However, nursing homes were
      changing their admissions practices in response to the prospective payment system. As a
      result, we concluded that the Department must remain vigilant to potential problems and
      that as part of this effort, the OIG would periodically replicate this study.

      Another study conducted by the OIG entitled, Early Effects of the Prospective Payment
      System on Access to Skilled Nursing Facilities: Nursing Home Administrators’
      Perspective, OEI-02-99-00401 found similar results. Based on a survey of nursing home
      administrators, we found that few administrators believe that access to nursing home care
      had become a problem because of the prospective payment system. However, many
      administrators noted that they had changed their admissions practices, and that medical
      condition has become more important in making admissions decisions.

Medicare Payments to Nursing Homes

      Skilled nursing facility care is covered by Medicare Part A under certain conditions.
      Specifically, the patient must have been hospitalized for 3 or more days within the last 30
      days for the condition that will be treated in the SNF. The SNF stay must also be certified
      as medically necessary and the patient must require daily skilled nursing or skilled
      rehabilitation services. The number of SNF days provided under Medicare is

   Medicare Beneficiary Access to SNFs         1                                     OEI-02-00-00330
      limited to 100 days per benefit period, with a co-payment required for days 21 through
      100.

      Medicare Part A payments for SNF care cover routine costs such as the room, dietary
      service, nursing service, minor medical supplies, and social service. Payments also cover
      capital costs for the building and equipment, and ancillary care for specialized services
      such as therapy, laboratory tests, and transportation. Until recently, SNFs were
      reimbursed on a retrospective, reasonable cost basis.

      The Balanced Budget Act of 1997 changed SNF reimbursement to a prospective payment
      system in order to control Medicare Part A program costs. Beginning with the SNF’s first
      cost reporting period after July 1, 1998, SNFs are paid through “per diem, prospective,
      case-mix adjusted” payments which cover routine, ancillary, and capital-related costs,
      including most items and services for which payment was previously made under Medicare
      Part B. The per diem payment is based on fiscal year 1995 Part A & B costs adjusted
      using the SNF market basket index (minus 1 percent), case-mix from resident assessments,
      and geographical wage variations. The market basket index represents an inflation factor.
      The case-mix index recognizes that SNF residents require different levels of care and is
      based on an assessment that assigns each resident to one of 44 Resource Utilization
      Groups (RUGS-III). This new payment system is being phased in over a three year
      transition period.

      In the Fall of 1999, Congress enacted the Balanced Budget Refinement Act (BBRA) in
      response to providers’ concerns that reductions were too severe. The BBRA included a 4
      percent across-the-board increase in payments to SNFs for FY2001 and 2002 and a
      temporary 20 percent increase for 15 payment categories of patients considered medically
      complex. In addition, several costly non-therapy ancillary services, including certain
      ambulance services, prostheses, and chemotherapy drugs, were excluded from the
      prospective payment system and are now paid for separately. These changes addressed
      concerns that payments were too low for patients who need relatively high levels of non-
      therapy ancillary services.

      In 1989, Medicare paid $2.8 billion to nursing homes, or about 4.7 percent of the
      Medicare budget. In 1997, this amount increased to $12.2 billion, which was about 5.9
      percent of the Medicare budget. In general, Medicare payments represent a relatively
      small share of nursing homes’ revenues, about 10 percent on average.

Discharge Planners

      By definition, all Medicare Part A beneficiaries in SNFs are discharged from hospitals.
      Hospital discharge planners who are responsible for coordinating SNF care are therefore
      in a unique position to assess the effects of the prospective payment system on access to
      nursing home care.


   Medicare Beneficiary Access to SNFs         2                                    OEI-02-00-00330
     Federal regulations require all hospitals to offer discharge planning services. The goal of
     these services is to identify a patient’s post-hospital needs and ensure that he or she is
     discharged to a safe environment with the appropriate level of services. In most hospitals,
     the social work, case management, or utilization review department has primary
     responsibility for discharge planning. Patients can be placed in a variety of settings
     including SNFs, home health care, hospices, or intermediate care.

     Discharge planning staff generally follow a standard process. In a typical scenario, staff
     screen patients’ records within 24 hours of admission. They attempt to identify patients
     who will require discharge planning services, such as those who are 65 years and older and
     living alone or those with possibly life-threatening illnesses. They then conduct a psycho-
     social assessment and discuss the patient’s care plan with his or her nurses and physicians,
     as well as utilization review staff, and other relevant interdisciplinary team members.
     Discharge planners also solicit the patient’s preferences and contact family members or
     other potential caregivers to get their input and cooperation. Based on this information,
     they attempt to place the patient in the most appropriate setting.


METHODOLOGY

     Discharge Planner Interviews

     We used a combination of methods to analyze information for this inspection. We chose a
     random sample of 225 acute care hospitals with 30 beds or more. The sample was drawn
     from the 50 states in addition to the District of Columbia. We conducted interviews with
     202 directors of discharge planning or their designees within a 3 week period from May
     22 until June 23, 2000. Twelve of the remaining 23 hospitals did not discharge Medicare
     patients to SNFs. We were unable to reach a discharge planner to schedule an interview
     at the other 11 hospitals.

     Analysis of Medicare Data

     Secondly, we analyzed Medicare data. Using HCFA’s National Claims History data, we
     identified all Medicare beneficiaries who were discharged from a hospital between January
     1, 1996, and March 31, 1996. We then identified patients who met this criteria for an
     analogous period in 1997, 1998, 1999, and 2000. We analyzed beneficiaries in the
     diagnosis related groups (DRGs) that are most commonly discharged to SNFs for these
     four time periods. As part of this analysis we assessed whether SNFs are admitting
     different types of beneficiaries since the implementation of PPS. We also analyzed
     hospital length of stay for beneficiaries discharged to SNFs care by these DRGs to
     examine whether certain patients are experiencing longer delays before being admitted to
     SNFs since PPS. Lastly, using HCFA's Provider of Services File, we analyzed trends in
     the number of SNFs.

  Medicare Beneficiary Access to SNFs         3                                     OEI-02-00-00330
   This inspection was conducted in accordance with the Quality Standards for
   Inspections issued by the President’s Council on Integrity and Efficiency.




Medicare Beneficiary Access to SNFs      4                                      OEI-02-00-00330
                                             FINDINGS

Almost all Medicare beneficiaries can be placed in skilled
nursing facilities
Most Medicare beneficiaries can be placed

      Almost all discharge planners report that they are able to place Medicare beneficiaries in
      skilled nursing facilities (SNFs). In fact, about 80 percent of discharge planners state that
      they could place all of the Medicare patients. Another 14 percent estimate that between 1
      and 5 percent of patients cannot be placed, while the remaining 5 percent of discharge
      planners put the estimate at over 5 percent. Most discharge planners indicate that there
      are enough beds available in their particular area to accommodate Medicare patients.
      Many volunteer that they have flexibility because their own hospital beds are certified by
      the Medicare program to be used as SNF beds when needed. Discharge planners also
      indicate that patients whom they are unable to place remain in the hospital or eventually
      go home with or without home health care.

More Medicare beds are available

      Medicare data support the response of discharge planners that there are adequate skilled
      nursing home beds available for Medicare patients. As shown in Table 1, Medicare SNFs
      have increased 0.9 percent from 1997 to 1999. The number of Medicare certified beds
      has seen a substantial increase at 22.8 percent. This increase is largely due to the increase
      in dual certified beds which are available for either a Medicare or Medicaid patient.
      Similarly, the total number of certified nursing home beds also increased 1.9 percent.
      Total nursing home beds includes Medicare only, dual certified, and Medicaid only beds.
      Currently, about 54 percent of the total nursing home beds are Medicare certified.

                                      Table 1

             Total Number of SNFs and Nursing Home Beds, 1997 to 1999


                                                                             Percent Change
                                          1997       1998        1999           1997-1999
             SNF Facilities              14,772     15,025      14,911              0.9%

         Total Medicare Beds             681,456    722,278     836,701            22.8%

         Total Certified Beds        1,528,061     1,556,495   1,556,569            1.9%
                                                                   Source: Provider of Services File




   Medicare Beneficiary Access to SNFs                   5                                      OEI-02-00-00330
Medical profile remains unchanged

      We also looked at pre- and post-PPS data for patients with diagnostic related groups
      (DRGs) from the first 3 months of years 1996 to 2000 to see if the proportion of patients
      with certain medical conditions is decreasing which would possibly indicate that certain
      patient types are experiencing a reduction in access to SNFs. We did not find any large
      decreases. Three DRGs had decreases over 1 percent: specific cerebrovascular disorder
      (-1.6 percent), respiratory infections and inflammations (-1.1 percent), and hip and femur
      procedures except major joint (-1.0 percent). Four DRGs had decreases of less than 1
      percentage point. Three DRGs showed an increase of less than 1 percent in the
      proportion of patients being discharged to SNFs. The largest increase was for simple
      pneumonia at 2 percent. (See Appendix B)


Some Medicare beneficiaries experience delays
      Some discharge planners experience delays in placing patients. For purposes of discharge
      planning, a delay occurs when a patient is medically cleared by a doctor for discharge,
      however, no SNF bed has been secured. When specifically asked how often they
      experience delays in placing Medicare patients in SNFs, 43 percent rarely or never
      experience delays while 44 percent of discharge planners report that they sometimes
      experience delays. Twelve percent of discharge planners say they always or usually
      confront delays in placing patients. While 62 percent of discharge planners experience the
      same percentage of delays as prior to PPS implementation, 28 percent state that they have
      a higher percentage of delays since PPS implementation.

      On average, discharge planners state that they have to contact about three nursing homes
      to place a Medicare patient in a SNF. Sixty-six percent of discharge planners had to
      contact approximately the same number of nursing homes prior to the implementation of
      PPS. Twenty-three percent respond that they had to contact fewer nursing homes since
      PPS implementation, and 9 percent respond that they contact more nursing homes.

However, hospital length of stays are shorter

      Despite concerns about delays, Medicare data from the first 3 months of 1996 through
      2000 show a decrease in the average length of hospital stays for Medicare patients prior to
      a SNF admission. These data suggest that Medicare patients do not have extended lengths
      of stay while waiting for a bed in a nursing home. As can be seen in Appendix C, the
      average lengths of stay for the top 10 DRGs of patients discharged to SNFs show that the
      length of hospital stays decreased ranging from 1.8 days (specific cerebrovascular
      disorders) to .2 days (septicemia).



   Medicare Beneficiary Access to SNFs         6                                     OEI-02-00-00330
Multiple factors affect the placement process
     Medical Needs: Eighty percent of hospital discharge planners who report delays in
     placing Medicare patients in SNFs state that patients with particular medical conditions or
     service needs are more likely to experience delays before being placed in skilled nursing
     facilities. Discharge planners most often note that patients requiring intravenous or
     expensive drugs experience delays. They say that medically complex patients are also
     more likely to experience delays. These patients typically require extensive services by the
     nursing home staff to adequately care for their medical needs. See Table 2. Discharge
     planners point to similar medical conditions or service needs when asked which patients
     they are never able to place in nursing homes.

                                            Table 2

                   Medical Conditions or Service Needs Associated with Delays


             Medical Condition/Service Need                   Percent of Discharge
                                                              Planners Reporting
                                                                    Delays
        IV antibiotics or expensive drugs                                 44%
        Medically complex patients                                        34%
        Ventilator patients                                               32%
        Infectious diseases/isolation patients                            27%
        Renal failure/dialysis patients                                   25%
        Behavior Problems                                                 20%
        (Alzheimers/Dementia)
        Total parenteral feedings                                         20%
       * Categories are not mutually exclusive   Source: OEI Discharge Planning Survey, June 2000




     Prospective Payment System: Sixty-nine percent of discharge planners who
     acknowledge delays in placement for medical conditions or service needs attribute these
     delays to PPS. The remaining discharge planners note that they experienced delays for
     these particular medical conditions or services prior to the implementation of PPS. About
     54 percent of discharge planners volunteer that nursing homes have altered their admission
     process for Medicare patients since the implementation of PPS. For example, discharge
     planners report that nursing homes request additional patient information and on-site visits
     to evaluate the patient. A few discharge planners add that nursing homes analyze the
     reimbursement rates of the individual patients before they accept patients and


  Medicare Beneficiary Access to SNFs             7                                                 OEI-02-00-00330
     that the routine screening and admission process takes longer. Most discharge planners
     respond that the reimbursement levels for these patients are too low to cover the expenses
     of the nursing homes. About a third of discharge planners also state that patients requiring
     rehabilitation services (physical, speech, or occupational therapy) are experiencing fewer
     delays because of PPS. They indicate that higher reimbursement levels for these patients
     makes it advantageous for nursing homes to accept these patients. They also mention that
     rehabilitation patients are often short-term with foreseeable discharge dates and that their
     service needs are easily administered.

     Other Reasons: In addition to medical conditions and PPS, discharge planners note other
     reasons that Medicare beneficiaries experience delays before being placed in a SNF. The
     decision making process by patients and their family members is mentioned most often as a
     source of delays. The patient and the family may be considering placement options or
     waiting for a bed to become available in their nursing home of choice. Lack of nursing
     home beds is also mentioned by the discharge planners in some areas. In addition,
     discharge planners also note that secondary payor issues cause delays. They explain that
     Medicare patients applying for Medicaid may experience delays waiting for approval.


Access improves for dialysis patients
     In a September 1999 OIG report, Early Effects of PPS on Access to SNFs, OEI-02-99-
     00400, we found that discharge planners most often listed end stage renal disease (ESRD)
     as the clinical condition that had become the hardest to place since the implementation of
     PPS. Discharge planners noted that the transportation to dialysis facilities for ESRD
     residents was not covered in the per diem rate. The Balanced Budget Refinement Act of
     1999, which became effective April 1, 2000, extended pass-through payments to
     ambulance services for renal dialysis so that nursing homes no longer have to absorb these
     costs. Although discharge planners continue to report delays for dialysis patients, dialysis
     patient delays dropped to the fifth most commonly cited delay. About a third of the
     discharge planners who say that ESRD patients experience delays state that transportation
     costs are a factor in the delay despite the changes in the regulations. It is important to
     note that the regulation had only been effective for approximately 2 months at the time we
     surveyed discharge planners.




  Medicare Beneficiary Access to SNFs         8                                      OEI-02-00-00330
                                  CONCLUSION


   The findings in this follow-up study are consistent with those in the original “Early Effects
   of the Prospective Payment System on Access to Skilled Nursing Facilities, OEI-02-99-
   00400.” While it reveals some practice adjustments, there do not appear to be any major
   disruptions as a result of implementing the prospective payment system. To the extent
   that there are some disruptions, they appear to be localized.




Medicare Beneficiary Access to SNFs          9                                     OEI-02-00-00330
                      AGENCY COMMENTS

   The Health Care Financing Administration provided comments on the draft report. They
   concurred with our conclusion that there do not appear to be any major disruptions as a
   result of implementing PPS. Furthermore, HCFA notes that they will continue to
   aggressively monitor access to SNFs and the quality of SNF care. The OIG will also
   continue our work in this area, being sensitive to any localized access issues.




Medicare Beneficiary Access to SNFs       10                                   OEI-02-00-00330
                                                                             APPENDIX A



                      Confidence Intervals for Key Findings 


We calculated confidence intervals for key findings for discharge planners. The point estimate
and 95% confidence interval are given for each of the following:



                                                                POINT          CONFIDENCE
                          KEY FINDINGS                         ESTIMATE         INTERVAL
 Eighty percent of discharge planners report they can place        80%              +/- 5.5
 all of their patients.
 Most discharge planners indicate that there are enough
 available beds in their particular area to accommodate            79%              +/- 5.6
 Medicare patients.
 When specifically asked how often they experience delays          43%              +/- 6.8
 in placing Medicare patients in SNFs, 43 percent report
 they rarely or never experience delays.
 When specifically asked how often they experience delays
 in placing Medicare patients in SNFs, 44 percent of               44%              +/- 6.9
 discharge planners report that they sometimes experience
 delays.
 Twenty-three percent of discharge planners responded
 they had to contact fewer nursing homes to place a                23%              +/- 5.8
 Medicare patient in a SNF since the implementation of
 PPS.
 Eighty percent of discharge planners who report delays
 state that patients with particular medical conditions are        80%              +/- 5.9
 more likely to experience delays.
 Discharge planners most often note that patients requiring
 intravenous drugs or expensive drugs are associated with          44%              +/- 8.1
 delays.




    Medicare Beneficiary Access to SNFs          11                                  OEI-02-00-00330
About 54 percent of discharge planners volunteer that
nursing homes have altered the process of placing              54%   +/- 6.9
Medicare patients in SNFs.
About a third of discharge planners also state that patients
requiring rehabilitation services are experiencing fewer       39%   +/- 8.0
delays because of PPS.
In addition to medical conditions, discharge planners note
other reasons that Medicare beneficiaries experience
delays before being placed in a SNF. The decision making       23%   +/- 6.2
by patients and their family members is mentioned most
often as a source of delays.




   Medicare Beneficiary Access to SNFs          12                    OEI-02-00-00330
                                                                                  APPENDIX B


               Proportion of Discharges to SNFs by DRG


                                       Percent   Percent   Percent   Percent     Percent    Difference
      Initial Hospital DRG              1996      1997      1998      1999        2000      1996-2000


DRG 014- Specific
cerebrovascular disorders               7.1       6.5       5.9        5.7         5.5          -1.6

DRG 079- Respiratory infections
and inflammations                       3.5       3.8       3.2        2.9         2.4          -1.1

DRG 210- Hip and femur
procedures except major joint           5.3       4.8       4.3        4.4         4.3          -1.0

DRG 209- Major joint and limb
reattachment procedures                 8.1       7.9       7.6        7.7         7.6          -0.5

DRG 416- Septicemia                     2.4       2.5       2.3        2.1         1.9          -0.5

DRG 127- Heart failure and
shock                                   4.8       4.8       4.9        4.9         4.7          -0.2

DRG 296- Nutritional and misc.
metabolic disorders                     2.8       2.7       2.7        2.8         2.7          -0.1

DRG 320- Kidney and urinary
tract infections                        2.0       1.9       2.0        2.1         2.1         +0.1

DRG 462- Rehabilitation                 2.1       2.1       2.0        2.1         2.4         +0.3

DRG 088- Chronic obstructive
pulmonary disease                       2.4       2.8       3.2        3.3         3.0         +0.6

DRG 089- Simple pneumonia
and pleurisy                            5.1       5.9       7.4        7.5         7.2         +2.0
                                                              Source: National Claims History File




 Medicare Beneficiary Access to SNFs              13                                       OEI-02-00-00330
                                                                                 APPENDIX C


          Average Hospital Lengths of Stay for Top DRGs

                      Discharged to SNFs



                                        Days    Days      Days      Days       Days      Difference
         Initial Hospital DRG           1996    1997      1998      1999       2000      1996-2000


DRG 014- Specific cerebrovascular
disorders
                                        10.7        9.8   9.4        9.0        8.9         -1.8

DRG 296- Nutritional and misc.
metabolic disorders
                                        8.7         7.7   7.4        7.4        7.2         -1.5

DRG 210- Hip and femur
procedures except major joint
                                        8.0         7.2   6.9        6.9       6.9          -1.1

DRG 209- Major joint and limb
reattachment procedures
                                        6.7         6.1   5.8        5.8        5.7         -1.0

DRG 320- Kidney and urinary tract
infections
                                        7.8         7.5   7.0        7.0        6.9         -0.9

DRG 127- Heart failure and shock        8.7         8.2   8.0        8.0        7.9         -0.8

DRG 088- Chronic obstructive
pulmonary disease
                                        8.6         8.1   7.8        7.7        7.8         -0.8

DRG 089- Simple pneumonia and
pleurisy
                                        8.6         8.3   8.0        7.8        8.0         -0.6

DRG 079- Respiratory infections
and inflammations
                                        10.6    10.3      10.2       10.2      10.3         -0.3

DRG 416- Septicemia                     10.2        9.7   9.6        9.7       10.0         -0.2

                                                                 Source: National Claims History File




  Medicare Beneficiary Access to SNFs          14                                         OEI-02-00-00330
                                                                        APPENDIX D


                          Comments on the Draft Report




   In this appendix, we present in full the comments from the Health Care Financing
   Administration.




Medicare Beneficiary Access to SNFs       15                                    OEI-02-00-00330
Medicare Beneficiary Access to SNFs   16   OEI-02-00-00330
Medicare Beneficiary Access to SNFs   17   OEI-02-00-00330
